No. 20-951
In the

Supreme Court of the United States
MARY STEWART, As Administrator of the
Estate of Luke O. Stewart, Sr., Deceased,
Petitioner,
v.
CITY OF EUCLID, OHIO, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Sixth Circuit

BRIEF IN OPPOSITION
James A. Climer
Frank H. Scialdone
Counsel of Record
Mazanec, Raskin & Ryder Co., L.P.A.
100 Franklin’s Row
34305 Solon Road
Cleveland, OH 44139
(440) 248-7906
fscialdone@mrrlaw.com
Counsel for Respondent
City of Euclid, Ohio

301405

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED FOR REVIEW
This Petition raises the following question that was
correctly decided below:
Whether the Sixth Circuit acted in accord with settled
law in Bd. of Cty. Comm’rs of Bryan Cty. v. Brown, 520
U.S. 397, 406 (1997) and City of Canton v. Harris, 489
U.S. 378, 388 (1989) that provide when a plaintiff claims
the municipality had not directly inflicted an injury – like
here – but nonetheless had caused an employee to do so,
rigorous standards of culpability and causation must be
applied to ensure that the municipality is not held liable
solely for the actions of its employees.

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED FOR REVIEW . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
I.

STATEMENT OF THE case . . . . . . . . . . . . . . 1
A.	Introduction  . . . . . . . . . . . . . . . . . . . . . . . . . . 1
B. Statement of the Facts  . . . . . . . . . . . . . . . . . 4
1.

Background regarding Officer
Rhodes  . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

2. Background regarding City of
Euclid . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
3.	Incident involving Luke Stewart  . . . . . 5
II. R E as ons for deny i ng t h i s
Petition  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
A. Petitioner has not ar ticulated a
“compelling” reason for this Court’s
review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
1.

The Sixth Circuit’s opinion is
consistent with Supreme Court
precedent . . . . . . . . . . . . . . . . . . . . . . . . 11

iii
Table of Contents
Page
2. There is no substantial conflict . . . . . . 15
III.	CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

iv
TABLE OF CITED AUTHORITIES
Page
Cases
Arrington-Bey v. City of Bedford Heights, Ohio,
138 S. Ct. 738 (U.S. Jan. 16, 2018) . . . . . . . . . . . . . 3, 15
Arrington-Bey v. City of Bedford Heights, Ohio,
858 F.3d 988 (6th Cir. 2017) . . . . . . . . . . . . . . . . . . . . 16
Bd. of Cty. Comm’rs of Bryan Cty. v. Brown,
520 U.S. 397 (1997) . . . . . . . . . . . . . . . . . . . . . . . passim
City of Canton v. Harris,
489 U.S. 378 (1989) . . . . . . . . . . . . . . . . . . . . . . . passim
Contreras on Behalf of A. L. v.
Dona Ana Cty. Bd. of Cty. Commissioners,
No. 20-811, 2021 WL 666438 (U.S. Feb. 22, 2021)  . 3, 15
Febus-Rodriguez v. Betancourt-Lebron,
14 F.3d 87 (1st Cir. 1994) . . . . . . . . . . . . . . . . . . . . . . . 10
Hagans v. Franklin Cty. Sheriff’s Office,
695 F.3d 505 (6th Cir. 2012) . . . . . . . . . . . . . . . . . . . . 10
Horton v. City of Santa Maria,
915 F.3d 592 (9th Cir. 2019)  . . . . . . . . . . . . . . . . . . . .  17
Kirkpatrick v. County of Washoe,
843 F.3d 784 (9th Cir. 2016) . . . . . . . . . . . . . . . . . . . .  17

v
Cited Authorities
Page
Leatherman v. Tarrant Co. Narcotics
Intelligence and Coordination Unit,
507 U.S. 163 (1993)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Monell v. Dep’t of Soc. Servs. of City of New York,
436 U.S. 658 (1978) . . . . . . . . . . . . . . . . . . . . . . . passim
Myers v. Oklahoma Cty Bd. Of County Com’rs,
151 F.3d 1313 (10th Cir. 1998)  . . . . . . . . . . . . . . . . . . 16
Owen v. City of Indep.,
445 U.S. 622 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Quintana v. Santa Fe Cty. Bd. of
Commissioners,
973 F.3d 1022 (10th Cir. 2020) . . . . . . . . . . . . . . . . . . 16
Robles v. City of Fort Wayne,
113 F.3d 732 (7th Cir. 1997) . . . . . . . . . . . . . . . . . . . . 11
Saunders v. Sheriff of Brevard Cty.,
735 F. App’x 559 (11th Cir. 2018) . . . . . . . . . . . . . . . .  17
Szabla v. City of Brooklyn Park, Minnesota,
486 F.3d 385 (8th Cir. 2007) . . . . . . . . . . . . . . . . . 12, 14
Townes v. City of New York,
176 F.3d 138 (2d Cir. 1999) . . . . . . . . . . . . . . . . . . . . . 10

vi
Cited Authorities
Page
Wright v. City of Euclid,
962 F.3d 852 (6th Cir. 2020) . . . . . . . . . . . . . . . . . . . . 18
Young v. City of Augusta,
59 F.3d 1160 (11th Cir. 1995)  . . . . . . . . . . . . . . . .  11, 17

1
I.

STATEMENT OF THE case
A.

Introduction

This case arises from Luke Stewart’s prolonged
reckless vehicular flight during which Officer Matthew
Rhodes, who was fully uniformed, was trapped inside the
suspect’s vehicle speeding through a residential area near
a school. Officer Rhodes struggled to bring Stewart under
control while the suspect thwarted his efforts at every
turn and was determined to keep driving. Officer Rhodes
used at least four lesser applications of force to bring
the situation under control before resorting to deadly
force. The suspect was dangerous, defiant, and acting in
a startlingly erratic manner in which a reasonable officer
would use force to protect himself and the community.
The exact reason for Stewart’s dangerously bizarre and
erratic behavior cannot be known, but his blood alcohol
level was over three times the legal limit, he had a high
level of cannabinoids in his system, and that he tested
positive for cocaine and Oxycodone.
The district court held as a matter of law Officer
Rhodes used constitutionally proper force throughout this
chaotic event. See District Court Op. at Pet. App. 35a.
While the Sixth Circuit found a genuine issue of material
fact on the force issue, it concluded that Officer Rhodes did
not violate clearly established law and affirmed summary
judgment. The Sixth Circuit also affirmed summary
judgment to the City of Euclid as to the failure-to-train
claim. Petitioner theorizes this order effectively granted
qualified immunity to the City. This is incorrect.

2
This Court has long held that a municipality cannot be
held liable under § 1983 on a respondeat superior theory.
Monell v. Dep’t of Soc. Servs. of City of New York, 436 U.S.
658, 691 (1978). This Court has expressly held that when
a municipality’s alleged responsibility for a constitutional
violation stems from an employee’s unconstitutional act,
the city’s failure to prevent the harm must be shown to be
deliberate under “rigorous requirements of culpability and
causation.” Bd. of Cty. Comm’rs of Bryan Cty. v. Brown,
520 U.S. 397, 415 (1997); City of Canton v. Harris, 489
U.S. 378, 388. The natural result is the violated right
in a deliberate-indifference/failure to train case must
be clearly established because a municipality cannot be
deliberately indifferent to a constitutional duty unless
that duty is clear. The Sixth Circuit merely followed
established law under Brown and Harris.
This case involves a narrow failure to train claim
against a municipality in which the Sixth Circuit concluded
there is no established law that required that officers
be trained regarding use of deadly force while trapped
inside a moving vehicle and the City could not be deemed
deliberately indifferent to a training need within the
meaning of City of Canton v. Harris, 489 U.S. 378, 389
(1989). The Sixth Circuit simply found that Petitioner could
not establish the demanding requirements of causation
for a Monell claim and refused to impose respondeat
superior liability. Petitioner’s general position that
qualified immunity does not apply to municipalities, is well
established law in this Court and every circuit. Neither
the district court, the Defendants/Respondents, nor the
Sixth Circuit argued contrary to this established law. The
Sixth Circuit applied the rigorous standards of culpability
and causation to ensure that a municipal employee is not

3
held liable solely for the actions of its employees under
Bd. of Cty. Comm’rs of Bryan Cty. v. Brown, 520 U.S.
397, 406 (1997) and City of Canton v. Harris, 489 U.S.
378, 388 (1989).
To inflame, Petitioner repeatedly focuses on excerpts
of material used in one in-service training session that
contained a distasteful attempt at humor. But, as the Sixth
Circuit held, despite a “tasteless” element to training, it is
“[o]nly where a municipality’s failure to train its employees
in a relevant respect evidences a deliberate indifference
to the rights of its inhabitants can such a shortcoming
be properly thought of as a city policy or custom that is
actionable under § 1983.” Harris, 489 U.S. 378, 389 (1989)
(internal quotation marks omitted).
Petitioner claims a “well-developed circuit split.”
Yet, Petitioner’s cases do not meaningfully address the
issues raised here and do not establish a “well-developed”
split. To the extent that there is a conflict at all, it is
inconsequential and undermined by the well-established
application of deliberate indifference jurisprudence.
And, this Court has very recently denied certiorari when
litigants raised similar issues in Contreras and ArringtonBey. See e.g.s: Contreras on Behalf of A. L. v. Dona Ana
Cty. Bd. of Cty. Commissioners, No. 20-811, 2021 WL
666438, at *1 (U.S. Feb. 22, 2021)(denying certiorari);
Arrington-Bey v. City of Bedford Heights, Ohio, 138 S.
Ct. 738 (U.S. Jan. 16, 2018)(denying certiorari).
This Court should deny certiorari.

4
B. Statement of the Facts
The Court of Appeals for the Sixth Circuit adequately
stated the pertinent background facts. See Sixth Cir.
Op. at Pet. App. 2a-6a. For this Court’s convenience, the
Respondents provide the following.
1.

Background regarding Officer Rhodes

Officer Rhodes was appointed to the Euclid Police
Department in August 2016. Officer Rhodes had worked
as a police officer since 2011. Before the incident, Officer
Rhodes received numerous hours of training and
completed Euclid’s use of force and firearms safety test.
Officer Rhodes had no prior use of deadly force incidents
and had no use of force violations.
2.

Background regarding City of Euclid

Euclid has had in place effective policies and
procedures that protect constitutional rights and provide
appropriate supervision, training and discipline of police
officers. Specifically, the Department’s use of force and
firearms policies provide clear and proper regulations
relating to the appropriate degree of force to effect lawful
objectives.
Use of force by a police officer results in the officer
submitting a use of force report to be reviewed by
supervisors. The use of force policy also establishes
a shooting investigation team which is tasked with
determining whether an officer’s discharge of a firearm
complied with departmental policies and procedures.

5
The policies also provide for police officer training.
The training establishes in-service training as well as
outsourced training for current or future assignments.
This includes basic training, recertification classes, career
development courses, legal updates and law enforcement
seminars.
The policies also establish appropriate procedures
for supervision, discipline and investigation of citizen
complaints. Citizen complaints are fully investigated and a
final determination is made as to whether a departmental
policy was violated. Appropriate discipline is meted to a
police officer in accordance with the departmental policy
and the collective bargaining agreement.
3.

Incident involving Luke Stewart

On March 13, 2017 at around 6:51 a.m., a concerned
citizen called the Euclid Police dispatch to report a
suspicious black Honda parked on South Lakeshore
Boulevard in Euclid. The citizen informed the dispatcher
that the Honda had been parked and idling for 20 minutes.
Officers Rhodes and Catalani responded to the dispatch.
Both Officers were wearing their standard police
department uniforms that rendered them clearly
identifiable as police officers, and they were driving
marked police cruisers.
Officer Catalani arrived on scene first. He parked his
cruiser behind the Honda, which had its headlights on, and
he turned on his cruiser’s take-down lights and spot light
and directed them at the Honda. Officer Catalani did not
activate his overhead red and blue lights, initially because

6
he did not know if the car was occupied, and later due to
indications that Stewart may be intoxicated and passed out
which could lead to a volatile situation if he was startled
awake in an uncontained vehicle.
Officer Catalani exited his cruiser and approached the
Honda’s driver side window. He shined his flashlight in the
vehicle and saw Stewart in the driver’s seat apparently
passed out. Officer Catalani also saw inside the Honda
a key in the ignition, a silver digital scale with a powder
residue, a half burnt marijuana blunt and a screw top cap
from an alcoholic beverage. Furthermore, Stewart did
not match the description of the 60-year-old registered
owner of the Honda and the registered owner had an
outstanding warrant. The flashlight was not waking
Stewart so Officer Catalani decided to wait for Officer
Rhodes before attempting further contact with Stewart.
Believing that Stewart was passed out and intoxicated,
Officer Catalani radioed Officer Rhodes stating “we are
going to end up pulling this guy out of the car.” Officer
Catalani explained pulling him out of the car meant having
Stewart exit the vehicle. This was necessary due to Officer
Catalani’s observations and suspicion that Stewart was
intoxicated and in possession of illegal drugs.
Officer Rhodes arrived and Officer Catalani informed
him of what he observed inside the Honda. Officer Rhodes
pulled his cruiser in front of the Honda to prevent a
potentially impaired driver from fleeing upon being
awakened. Officer Rhodes turned on his take-down lights
and exited the cruiser. As Officer Rhodes approached the
passenger side of the Honda, Officer Catalani knocked on
the driver side window. Stewart woke up and looked at

7
Officer Catalani. Officer Catalani waved at Stewart and
Stewart waved back while starting to sit forward. Stewart
then immediately started the Honda and began to reach
for the gear shift.
Officer Catalani then opened the driver side door while
Stewart was attempting to grab the gear shift. Officer
Catalani yelled “no” and “stop” multiple times. Officer
Catalani pulled Stewart toward him while Stewart was
trying to get the car into gear. When Stewart started the
Honda, Officer Rhodes opened the passenger side door
and heard Stewart yell “police.” Officer Rhodes leaned
into the vehicle while pushing Stewart toward Officer
Catalani. As he pushed, Officer Rhodes went forward into
the Honda and was kneeling on the passenger seat with
his legs protruding out the passenger door.
Despite the Officers’ attempt to gain compliance,
Stewart put the Honda in gear. Stewart hit both cruisers
and maneuvered the Honda so that it was travelling
westbound on South Lakeshore Boulevard. Officer
Catalani was still inside the open driver side door and
was running laterally with the vehicle as it was gaining
speed. Officer Catalani saw an SUV traveling toward
the Honda. Concerned that the SUV would strike him
or the open driver side door causing him to be crushed,
Officer Catalani stopped running alongside the Honda and
disengaged his attempt to stop Stewart’s flight. Stewart
sped away with Officer Rhodes trapped inside the vehicle.
Inside the Honda, Officer Rhodes pulled his legs into
the car because he was fearful that the open passenger
door would hit his cruiser and slam shut on his legs. Officer
Rhodes tried to place the car into park at several points to

8
no avail. When Officer Rhodes would get the Honda into
neutral, he would reach for the keys in an attempt to shut
off the engine but as he did so, Stewart would then reach
for the gear shift and place the Honda back into drive. This
exchange happened multiple times during the incident.
Unable to get the car out of gear or turn it off, Officer
Rhodes attempted to gain compliance by striking Stewart
with his fist, but Stewart continued to drive with Officer
Rhodes trapped in the car. Officer Rhodes then used his
taser in an attempt to gain Stewart’s compliance. The
taser did not have the full effect, and Stewart continued
driving. At the intersection of South Lakeshore and East
222nd, the Honda stopped and Officer Rhodes was able to
get the car into neutral and the engine turned off. Officer
Catalani had been running and caught up to the stopped
vehicle. However, before Officer Catalani could get to the
car, Stewart was able to start the engine and accelerated
down East 222nd.
Stewart was accelerating and driving erratically down
East 222nd, including driving up on a curb and around a
telephone pole. Officer Rhodes saw telephone poles flying
by. Stewart accelerated and drove over another curb while
pushing and fighting with Officer Rhodes. At this time,
Officer Rhodes believed that Stewart posed a serious risk
of harm or death if allowed to continue.
Notably, this incident was occurring close to a school
and at a time when children would be pedestrians.
Having exhausted other means of ending the threat,
Officer Rhodes fired his gun at Stewart. Stewart swung
at Officer Rhodes but ultimately slumped forward and
stopped resisting. An EMS crew responded and provided

9
emergency medical services. However, Stewart died from
the gunshot wounds.
Subsequent ly, the Oh io Bu reau of Cr i m i na l
Investigation (“BCI”) fully investigated the incident and
confirmed the aforementioned events. The investigation
also determined that, at the time of the incident, Stewart
had a blood alcohol level over three times the legal limit,
that he had a high level of cannabinoids in his system, and
that he tested positive for cocaine and Oxycodone.
II. REasons for denying this Petition
A.

Petitioner has not articulated a “compelling”
reason for this Court’s review.

“A petition for a writ of certiorari will be granted only
for compelling reasons.” Sup. Ct. R. 10. This case involves
a narrow failure to train claim against a municipality in
which the Sixth Circuit concluded there is no established
law that required that officers be trained regarding use
of deadly force while trapped inside a moving vehicle and
the City could not be deemed deliberately indifferent to
a training need within the meaning of City of Canton v.
Harris, 489 U.S. 378, 389 (1989).
The present case did not involve a direct municipal act
by the City, but rather the Petitioner is trying to impose
liability on the City for the acts of its employees. See Sixth
Cir. Op. at Pet. App. 17a (explaining the difference between
types of Monell claims when an injury arises directly from
a municipal act, and those that arise from an employee’s
unconstitutional act). The Sixth Circuit properly found
that a litigant cannot sue a city for training material

10
that has “tasteless elements,” despite the Petitioner’s
disproportionate focus on one document used during one
in-service training session. See Sixth Cir. Op. at Pet.
App. 16a. Rather, a municipality can only be held liable
for the constitutional violations of its employees when the
municipality’s custom or policy led to the violation. Monell
v. Dep’t of Soc. Servs. of City of New York, 436 U.S. 658,
694-95 (1978).
A municipality cannot be held liable under § 1983 on a
respondeat superior theory. Monell v. Dep’t of Soc. Servs.
of City of New York, 436 U.S. 658, 691 (1978). This Court
has expressly held that when a municipality’s alleged
responsibility for a constitutional violation stems from
an employee’s unconstitutional act, the city’s failure to
prevent the harm must be shown to be deliberate under
“rigorous requirements of culpability and causation.” Bd.
of Cty. Comm’rs of Bryan Cty. v. Brown, 520 U.S. 397,
415 (1997); City of Canton v. Harris, 489 U.S. 378, 388.
The natural result is that the violated right in deliberateindifference/failure to train cases thus must be clearly
established because a municipality cannot be deliberately
indifferent to a constitutional duty unless that duty is
clear. The Sixth Circuit merely followed established law.
The circuits that have touched on this issue in a
meaningful way routinely observe – and have done so
for decades – that if there is not some clear notice to the
city of a constitutional violation that a failure to train
theory would simply impose impermissible respondeat
superior liability on a city. See e.g.s, Febus-Rodriguez
v. Betancourt-Lebron, 14 F.3d 87, 94 n.10 (1st Cir. 1994);
Townes v. City of New York, 176 F.3d 138, 143–44 (2d Cir.
1999); Hagans v. Franklin Cty. Sheriff’s Office, 695 F.3d

11
505, 511 (6th Cir. 2012); Robles v. City of Fort Wayne, 113
F.3d 732, 735 (7th Cir. 1997); Young v. City of Augusta,
59 F.3d 1160, 1172 (11th Cir. 1995).
1.

The Sixth Circuit’s opinion is consistent
with Supreme Court precedent.

Petitioner suggests that the Sixth Circuit’s decision is
in conflict with the established law that qualified immunity
does not apply to a municipality. The Sixth Circuit did not
hold that a municipality could raise qualified immunity as
a defense to a Monell claim. This Court and all circuits
have long held that qualified immunity is not available
to municipalities. See, e.g., Leatherman v. Tarrant Co.
Narcotics Intelligence and Coordination Unit, 507 U.S.
163, 166 (1993) (“Municipalities do not enjoy immunity
from suit—either absolute or qualified—under § 1983.”).
No legitimate controversy exists.
The Sixth Circuit’s decision is consistent with the
Court’s decision City of Canton v. Harris, supra. The
Bd. of Cty. Comm’rs of Bryan Cty. v. Brown, 520 U.S.
397, 406 (1997) case reaffirms Canton’s requirement that
a municipality’s deliberate indifference must in fact be
deliberate. This Court held in Brown where a plaintiff
claims that the municipality has not directly inflicted
an injury – like here – but nonetheless has caused an
employee to do so, rigorous standards of culpability and
causation must be applied to ensure that the municipality
is not held liable solely for the actions of its employee. Id.
In a deliberate-indifference case, the claimant must show
not only that an employee’s act caused a constitutional tort,
but also that the city’s failure to train its employees caused
the employee’s violation and that the city culpably declined

12
to train its “employees to handle recurring situations
presenting an obvious potential for such a violation.” Id.
at 409; see Szabla, 486 F.3d at 393.
“[O]bvious potential for such a violation” has two
elements: It must be obvious that the failure to train will
lead to certain conduct, and it must be obvious (i.e., clearly
established) that the conduct will violate constitutional
rights. As Judge Colloton pointed out in his opinion for the
en banc Eighth Circuit in Szabla, requiring that the right
be clearly established does not give qualified immunity
to municipalities; it simply follows City of Canton’s and
Brown’s demand that deliberate indifference in fact be
deliberate. Szabla, 486 F.3d at 394.
The Sixth Circuit simply relied on this Court’s
Brown and City of Canton precedent to conclude that a
“municipality cannot deliberately shirk a constitutional
duty unless that duty is clear.” (Sixth Cir. Op. at Pet.
App. 16a-17a.) Here, the Sixth Circuit determined that
Petitioner cannot sue the City of Euclid for a “distasteful”
training program. But, a municipality may be held liable
for the constitutional violations of its employees when the
municipality’s custom or policy led to the violation. Monell,
436 U.S. at 694-95. But “[o]nly where a municipality’s
failure to train its employees in a relevant respect
evidences a deliberate indifference to the rights of its
inhabitants can such a shortcoming be properly thought
of as a city policy or custom that is actionable under §
1983.” City of Canton v. Harris, 489 U.S. 378, 389 (1989).
(Sixth Cir. Op. at Pet. App. 16a-17a.) No established law
required that officers be specifically trained regarding
use of deadly force while trapped inside a moving vehicle
and the City could not be deemed deliberately indifferent

13
to a training need within the meaning of City of Canton
v. Harris.
The Petitioner argues that there is a categorical rule
that has been established by the present case. But, that
is not correct and, for instance, obscures the distinction
between Monell cases that “present no difficult questions
of fault and those that do.” Brown, 520 U.S. 397, 406 (1997)
(Examples of those are Pembaur where there decision of
the county prosecutor; Owen v. City of Indep., 445 U.S.
622, 629, 638 (1980), where there was formal decision
by a legislative body (discharged an employee without
a hearing). Because fault and causation were obvious
in these types of cases, “proof that the municipality’s
decision was unconstitutional would suffice to establish
that the municipality itself was liable for the plaintiff’s
constitutional injury.” Brown, 520 U.S. 397, 406 (1997).
Moreover, municipalities are not vicariously liable
in § 1983 actions merely because they employ someone
who has committed a constitutional violation. Monell,
436 U.S. at 694. They must pay for violations only if the
injury is caused by a municipal custom or policy, or if the
city’s failure to train employees amounts to deliberate
indifference to constitutional rights. See City of Canton,
489 U.S. at 388. This is well established law. The City
could not be deliberately indifferent in this case because
a constitutional duty was not clear.
Petitioner asserts that qualified immunity is not a
defense to a Monell claim, and deliberate indifference
for failure to train is a Monell claim. Therefore, the Sixth
Circuit erred. But, the Sixth Circuit did not apply qualified
immunity to the City.

14
Where the municipality has not directly inflicted
an injury, however, “rigorous standards of
culpability and causation must be applied,”
[Bd. of Cty. Comm’rs of Bryan Cty. v. Brown,
520 U.S. 397, 405], and a showing of deliberate
indifference is required. The absence of
clearly established constitutional rights-what
Justice O’Connor called “clear constitutional
guideposts,” [City of Canton v. Harris, 489 U.S.
378, 397 (1989)] – undermines the assertion that
a municipality deliberately ignored an obvious
need for additional safeguards to augment
its facially constitutional policy. This is not
an application of qualified immunity for
liability flowing from an unconstitutional
policy. Rather, the lack of clarity in the law
precludes a finding that the municipality had
an unconstitutional policy at all, because its
policymakers cannot properly be said to have
exhibited a policy of deliberate indifference
to constitutional rights that were not clearly
established.
Szabla v. City of Brooklyn Park, Minnesota, 486 F.3d 385,
394 (8th Cir. 2007), emphasis added.
The Sixth Circuit’s opinion is consistent with this
Court’s jurisprudence. The Sixth Circuit applied the
deliberate indifference standard in this particular context
and acted in accord with the established law of Brown
and Harris.

15
2.

There is no substantial conflict.

The patchwork of cases that Petitioner collects
endeavors to create the impression of a “well-developed
circuit split.” Yet, Petitioner’s cases do not meaningfully
address the issues raised here and do not establish or
even expressly acknowledge a purported “well-developed”
split.
To the extent that there is a conflict at all, it is
inconsequential and undermined by the well-established
application of deliberate indifference jurisprudence that
provides, “[W]ithout some form of notice to the city, and
the opportunity to conform to constitutional dictates both
what it does and what it chooses not to do, the failure to
train theory of liability could completely engulf Monell,
imposing liability without regard to fault.” City of Canton,
489 U.S. at 395 (O’Connor, J., concurring in part and
dissenting in part)). The violated right in a deliberateindifference case naturally must be clearly established
because a municipality cannot deliberately shirk a
constitutional duty unless that duty is clear.
Further, this Court has very recently denied
certiorari by litigants raising similar issues in Contreras
and Arrington-Bey. See e.g.s: Contreras on Behalf of
A. L. v. Dona Ana Cty. Bd. of Cty. Commissioners,
No. 20-811, 2021 WL 666438, at *1 (U.S. Feb. 22, 2021)
(denying certiorari); Arrington-Bey v. City of Bedford
Heights, Ohio, 138 S. Ct. 738 (U.S. Jan. 16, 2018)(denying
certiorari).
The Petitioner is incorrect that there is a per se rule
or categorical rule that prohibits municipal liability in all

16
cases where clearly established law does not exist. Rather,
the lack of clarity in the law in some instances will preclude
a finding that the municipality had an unconstitutional
policy, because a city could not have a policy of deliberate
indifference to constitutional rights that were not clearly
established. See e.g., Sixth Cir. Op. at Pet.’s Apx. 17(a),
citing Arrington-Bey v. City of Bedford Heights, Ohio, 858
F.3d 988, 994 (6th Cir. 2017)(also explaining differences
between entity claims). Petitioner’s position of a conflict
is undermined by the general requirements of City of
Canton v. Harris, supra.
Petitioner relies on Quintana v. Santa Fe Cty. Bd.
of Commissioners, 973 F.3d 1022 (10th Cir. 2020) that is
distinguishable and does not address whether a city was
deliberately indifferent to use of force training. In fact, the
court there found that Santa Fe County may incur liability
based on a custom reflecting deliberate indifference
to the serious medical needs of inmates experiencing
withdrawal. Quintana, at 1054 (… we need not address
the allegation of inadequate training). And, the Quintana
plaintiff had established a custom of deficient intake of
those with withdrawal symptoms (for which the DOJ put
the defendant on notice) and resulted in several inmates
at the jail experiencing withdrawal-related deaths.) The
Quintana decision, decided in 2020, does not suggest
a legitimate split of authority and does not specifically
identify one. It merely found that an individual defendant
need not be held liable before an entity could be liable
under Monell when there is a custom that results in injury
and meets the requirements of causation.
Myers v. Oklahoma Cty Bd. Of County Com’rs, 151
F.3d 1313 (10 th Cir. 1998) is likewise distinguishable,

17
because whether or not the individual could be held
liable, the plaintiff must still establish the requirements
of causation – that is, “where a failure to train reflects
a ‘deliberate’ or ‘conscious’ choice by a municipality – a
‘policy’… – can a city be liable for such failure under
§1983.” Myers at 1318, citing City of Canton v. Harris,
489 U.S. 378, 379 (1989). The issue in the present case is
whether the City of Euclid was “deliberately indifferent”
to the rights of citizens with regard to its use of force
training of officers inside moving vehicles under Harris.
The fact that the law is not established on that relevant
point in this case renders a claim of deliberate indifference
untenable.
The Kirkpatrick v. County of Washoe, 843 F.3d 784
(9 Cir. 2016) case is also distinguishable. There, the
court found that the social workers’ training regarding
separating parents and children was “so obvious” that
failure to do so was deliberately indifferent. Here, there
was not an “obvious” lack of training, despite Petitioner’s
emphasis on one distasteful portion of a training session.
Officer Rhodes was well trained in the constitutional
use of force. Likewise, Petitioner’s observation that
certain aspects of qualified immunity are not inextricably
intertwined for purposes of interlocutory appellate
jurisdiction over an entity does not create a conflict with
the present decision. (Pet. at 13-14, citing Horton v. City
of Santa Maria, 915 F.3d 592 (9 th Cir. 2019), Saunders v.
Sheriff of Brevard Cty., 735 F. App’x 559, 563 (11th Cir.
2018), and similar cases.)
th

Petitioner’s citation to Young v. Augusta, Ga., 59 F.3d
1160 (11th Cir. 1995) is distinguishable because it did not
deal with an individual or clearly established law; further,

18
there was a pattern of deliberate indifference that should
have put the city policy makers on notice, which does not
exist here.
Petitioner’s reliance on Wright v. City of Euclid, 962
F.3d 852 (6th Cir. 2020) is distinguishable factually and
legally. The present case involves Stewart’s prolonged
reckless vehicular flight during which Officer Rhodes, who
was fully uniformed, was unsecured and trapped inside the
suspect’s moving vehicle. Officer Rhodes used at least four
lesser applications of force to bring the situation under
control before resorting to deadly force. The suspect was
dangerous, defiant, and acting in a startlingly erratic
manner in which a reasonable officer would use force to
protect himself and the community. In stark contrast, the
Wright panel determined the officers improperly used
non-lethal force on an unarmed, compliant or passively
resisting citizen whose mobility was impaired by a
colostomy bag. That plaintiff feared he was being robbed
when plain clothes officers approached him with guns
drawn, subsequently and simultaneously using a Taser
and pepper spray. Officer Rhodes was properly trained
and had worked as a police officer outside of the City of
Euclid from 2008 to 2016 and was adequately trained
in use of force throughout his career. Here, Petitioner
contended that the Euclid Police Department’s policies
and procedures were inadequate because they did not
address the specific tactics to be employed under the
circumstances surrounding this incident (i.e., the use of
force when an officer is trapped in a suspect’s moving
vehicle). In Wright, the plaintiff contended broadly the
connection to the training was a result of the use of force
on a compliant but passively resisting person.

19
III. CONCLUSION
The Court should deny the Petition for a Writ of
Certiorari.
Respectfully submitted,
James A. Climer
Frank H. Scialdone
Counsel of Record
Mazanec, Raskin & Ryder Co., L.P.A.
100 Franklin’s Row
34305 Solon Road
Cleveland, OH 44139
(440) 248-7906
fscialdone@mrrlaw.com
Counsel for Respondent
City of Euclid, Ohio

